No. 20-850

In the
Supreme Court of the United States
BIG TIME VAPES, INCORPORATED, ET AL.
Petitioners,
v.
FOOD & DRUG ADMINISTRATION, ET AL.
Respondents.

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rules 33(1)(h) and 37.5, I certify that the
Motion for Leave to File an amici curiae brief contains 485 words, excluding those
parts of the document exempted by Supreme Court Rule 33.1(d).
I further certify that the Amici Curiae Brief in Support of the Petition for a
Writ of Certiorari complies with the word limitations in Rule 33(1)(g). It contains
5,986 words, including footnotes, but excluding sections exempted from the word
count by Rule 33(1)(d).
I declare under penalty of perjury that the foregoing is true and correct.

This the 26th day of January 2021.

/s/ J. Gregory Troutman
J. GREGORY TROUTMAN
Counsel of Record
TROUTMAN LAW OFFICE, PLLC.
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
(502) 412-9190
jgtatty@yahoo.com
Attorney for Amici Curiae

